No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JANET L. YELLEN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
UNITED STATES HOUSE OF REPRESENTATIVES
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 11th
day of June, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,943 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare under
penalty of perjury that the foregoing is true and correct. Executed on
June 11, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 11, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management, Office of
the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s
phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

JANET L. YELLEN, SECRETARY OF THE TREASURY,
ET AL.
UNITED STATES HOUSE OF REPRESENTATIVES
DOUGLAS N. LETTER
GENERAL COUNSEL
US HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

